March 19, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of the Quarterly Medicaid Statement of Expenditures for the Medical
              Assistance Program in Washington State (A-09-10-02013)


Attached, for your information, is an advance copy of our final report on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program in Washington State. We will
issue this report to the Washington State Health Care Authority within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-10-02013.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103
March 26, 2012

Report Number: A-09-10-02013

Mr. Doug Porter
Director
Health Care Authority
626 Eighth Avenue
Olympia, WA 98504-5502

Dear Mr. Porter:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in Washington State. We will forward a copy of this report
to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Gerald Illies, Audit Manager, at (206) 615-2252 or through email at
Gerald.Illies@oig.hhs.gov. Please refer to report number A-09-10-02013 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Doug Porter


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF THE QUARTERLY
   MEDICAID STATEMENT OF
EXPENDITURES FOR THE MEDICAL
   ASSISTANCE PROGRAM IN
     WASHINGTON STATE




                       Daniel R. Levinson
                        Inspector General

                          March 2012
                         A-09-10-02013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

In Washington State, the Health Care Authority (State agency) administers the Medicaid
program. The State agency claims Medicaid expenditures on the Quarterly Medicaid Statement
of Expenditures for the Medical Assistance Program (Form CMS-64). This form shows
Medicaid expenditures for the quarter being reported and any prior-period adjustments. Pursuant
to 42 CFR § 430.30(c)(2) and the CMS State Medicaid Manual, sections 2500 A.1. and
2500.2 A., the amounts reported on the Form CMS-64 and its attachments must represent actual
expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and is available at the time the claim is filed.

For the quarter ended September 30, 2009, the State agency claimed $1.62 billion ($1.02 billion
Federal share) in Medicaid expenditures. We reviewed seven line items on the Form CMS-64
totaling $1.18 billion ($742 million Federal share), or approximately 73 percent of the claimed
expenditures for the quarter. We limited our review of the expenditures claimed for the seven
line items to reconciling the expenditures with the State agency’s accounting records. We did
not determine whether claimed expenditures complied with all Medicaid program requirements.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal reimbursement for its
Medicaid expenditures in accordance with certain Federal requirements.

SUMMARY OF FINDINGS

For the quarter ended September 30, 2009, the State agency generally claimed Federal
reimbursement for its Medicaid expenditures in accordance with certain Federal requirements.
However, the State agency claimed:

   •   $10,049,333 in expenditures that were not actual expenditures (Federal share overstated
       by $5,179,949),

   •   $32,484 in expenditures for duplicate payments (Federal share overstated by $20,446),
       and




                                               i
   •   $73,575,828 in expenditures that were incorrectly reported on the Form CMS-64 (Federal
       share understated by $10,620). Most of the claimed expenditures in this category did not
       have an effect on the Federal share.

In total, the State agency improperly claimed Federal reimbursement of $5,189,775.

The State agency did not properly claim these expenditures for Federal reimbursement because it
did not have adequate internal controls to (1) ensure that the claimed amounts were based on
actual Medicaid expenditures, (2) prevent or detect claims for duplicate payments, and (3) report
expenditures correctly on the Form CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $5,189,775 to the Federal Government and

   •   strengthen internal controls to (1) ensure that amounts claimed for Federal reimbursement
       are based on actual Medicaid expenditures, (2) prevent and detect claims for duplicate
       payments, and (3) correctly report Medicaid expenditures on the Form CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken to
address our recommendations. The State agency’s comments are included in their entirety as the
Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicaid Program ....................................................................................................1
              American Recovery and Reinvestment Act of 2009................................................1
              Washington State’s Medicaid Program ...................................................................1
              Quarterly Medicaid Statement of Expenditures
                for the Medical Assistance Program ...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................2
               Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................3

          EXPENDITURES CLAIMED WERE NOT ACTUAL EXPENDITURES .......................4

          EXPENDITURES CLAIMED WERE FOR DUPLICATE PAYMENTS ..........................4

          EXPENDITURES WERE INCORRECTLY REPORTED .................................................4

          RECOMMENDATIONS .....................................................................................................5

          STATE AGENCY COMMENTS ........................................................................................5

APPENDIX

          HEALTH CARE AUTHORITY COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

The Federal Government pays its share of a State’s medical assistance costs under Medicaid
based on the Federal medical assistance percentage (FMAP). The FMAP varies depending on
the State’s relative per capita income. By law, the FMAP cannot be lower than 50 percent.
Although FMAPs are adjusted annually for economic changes in the States, Congress may
increase FMAPs at any time.

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period
(October 1, 2008, through December 31, 2010), the Recovery Act provided an estimated
$87 billion in additional Medicaid funding based on temporary increases in States’ FMAPs. 1
Section 5000(a) of the Recovery Act provided for these increases to help avert cuts in health care
payment rates, benefits, or services, and to prevent changes to income eligibility requirements
that would reduce the number of individuals eligible for Medicaid. Sections 5001(a)–(c) of the
Recovery Act provided that a State’s increased FMAP during the recession adjustment period
would be no less than its 2008 FMAP increased by 6.2 percentage points and that a State could
receive an increase greater than 6.2 percentage points based on increases to its average
unemployment rate.

Washington State’s Medicaid Program

In Washington State, the Health Care Authority (State agency) administers the Medicaid
program. The State agency uses the Medicaid Management Information System and the Social
Service Payment System to process and pay Medicaid claims. For the quarter ended
September 30, 2009, the FMAP for Washington State was 62.94 percent. 2


1
 Section 201 of the Education Jobs and Medicaid Assistance Act (P.L. No. 111-226) extended the recession
adjustment period for the increased FMAPs through June 30, 2011.
2
    This percentage included a temporary increase of 12 percentage points due to the Recovery Act.


                                                           1
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program (Form CMS-64). The Form CMS-64 is the
accounting statement that the State agency, pursuant to 42 CFR § 430.30(c)(1), must submit to
CMS within 30 days after the end of each quarter. This form shows Medicaid expenditures for
the quarter being reported and any prior-period adjustments. It also accounts for any
overpayments, underpayments, and refunds received by the State agency.

Washington State’s Medicaid expenditures are recorded in its accounting system, which is
populated by the expenditures from two payment systems and other sources, such as journal
vouchers and invoice entries. State agency personnel transfer the expenditures to a summary
schedule and assign the expenditures to specific line items on the Form CMS-64.

Pursuant to 42 CFR § 430.30(c)(2) and the CMS State Medicaid Manual (Manual),
sections 2500 A.1. and 2500.2 A., the amounts reported on the Form CMS-64 and its
attachments must represent actual expenditures for which all supporting documentation, in
readily reviewable form, has been compiled and is available at the time the claim is filed.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal reimbursement for its
Medicaid expenditures in accordance with certain Federal requirements.

Scope

For the quarter ended September 30, 2009, the State agency claimed $1.62 billion ($1.02 billion
Federal share) in Medicaid expenditures. We reviewed seven line items on the Form CMS-64
totaling $1.18 billion ($742 million Federal share), or approximately 73 percent of the claimed
expenditures for the quarter. 3

We did not perform a detailed review of the State agency’s overall internal control structure. We
reviewed only those internal controls that the State agency had in place to account for, document,
and claim Medicaid expenditures for the seven selected line items on the Form CMS-64. We
limited our review of the expenditures claimed for the seven line items to reconciling the
expenditures with the State agency’s accounting records. We did not determine whether claimed
expenditures complied with all Medicaid program requirements.

We performed fieldwork at the State agency’s offices in Olympia and Lacey, Washington.



3
 The seven line items were (1) Inpatient Hospital Services—Regular Payments, (2) Nursing Facility Services,
(3) Prescribed Drugs, (4) Medicaid Health Insurance Payments: Managed Care Organizations, (5) Prepaid Inpatient
Health Plan, (6) Home and Community-Based Services, and (7) Personal Care Services.


                                                       2
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   interviewed CMS personnel responsible for reviewing the Form CMS-64;

   •   interviewed State agency officials to gain an understanding of State agency policies and
       procedures and systems used to account for, document, and claim Medicaid expenditures
       on the Form CMS-64;

   •   reconciled Medicaid expenditures claimed on the Form CMS-64, totaling $1.18 billion
       ($742 million Federal share), with the State agency’s accounting records for seven line
       items that made up approximately 73 percent of the State agency’s total claim; and

   •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For the quarter ended September 30, 2009, the State agency generally claimed Federal
reimbursement for its Medicaid expenditures in accordance with certain Federal requirements.
However, the State agency claimed:

   •   $10,049,333 in expenditures that were not actual expenditures (Federal share overstated
       by $5,179,949),

   •   $32,484 in expenditures for duplicate payments (Federal share overstated by $20,446),
       and

   •   $73,575,828 in expenditures that were incorrectly reported on the Form CMS-64 (Federal
       share understated by $10,620). Most of the claimed expenditures in this category did not
       have an effect on the Federal share.

In total, the State agency improperly claimed Federal reimbursement of $5,189,775.

The State agency did not properly claim these expenditures for Federal reimbursement because it
did not have adequate internal controls to (1) ensure that the claimed amounts were based on
actual Medicaid expenditures, (2) prevent or detect claims for duplicate payments, and (3) report
expenditures correctly on the Form CMS-64.


                                                3
EXPENDITURES CLAIMED WERE NOT ACTUAL EXPENDITURES

Pursuant to sections 1903(a) and 1905(a) of the Act, Federal reimbursement is available only for
expenditures that constitute payment for part or all of the cost of services furnished as medical
assistance under the approved State plan. Pursuant to 42 CFR § 430.30(c)(2) and
section 2500 A.1. of the Manual, amounts reported on the Form CMS-64 must be actual
expenditures for which States are entitled to Federal reimbursement.

The State agency erroneously claimed $10,049,333 ($5,179,949 Federal share) for expenditures
that were not actual expenditures when it corrected errors that occurred on prior Forms CMS-64.

EXPENDITURES CLAIMED WERE FOR DUPLICATE PAYMENTS

Section 1903(d)(2)(A) of the Act requires that quarterly Federal payments to the States be
adjusted to reduce prior overpayments or increase prior underpayments. Section 2500.6 A. of
the Manual states: “Overpayments are not considered payments made in accordance with your
approved State plan and, therefore, are not allowable for [Federal reimbursement]. An
overpayment is any amount in excess of the amount that should have been paid and is refunded
as required under § 1903 of the Act.” A duplicate payment is considered an overpayment.

The State agency made duplicate payments to providers of home and community-based services
and personal care services. The State agency claimed $32,484 in expenditures on the
Form CMS-64 for those payments—an overstatement of $32,484 ($20,446 Federal share).

EXPENDITURES WERE INCORRECTLY REPORTED

Section 2500.2 A. of the Manual instructs State agencies to report on the Form CMS-64 medical
assistance payments by type of service. Section 2500.2 A. also instructs State agencies to report,
on the Form CMS-64.9p, payments made in a prior period but not included on the expenditure
report for that period and payments made as adjustments to amounts claimed in prior periods.
When preparing the Form CMS-64, the State agency incorrectly reported expenditures related to
inpatient hospital services, Medicaid managed care, and prior periods. As a result, the State
agency misstated expenditures by $73,575,828 and understated the Federal share by $10,620.
Only the claimed expenditures related to inpatient hospital services had an effect on the Federal
share.

      •    The State agency understated inpatient hospital services expenditures by $88,499 because
           it incorrectly reported disproportionate share hospital (DSH) payment adjustments on the
           line for inpatient hospital services—regular payments. Because of this error, the State
           agency did not claim Federal reimbursement of $55,701 (62.94 percent of $88,499) for
           inpatient hospital services and incorrectly claimed Federal reimbursement of $45,081
           (50.94 percent of $88,499) for DSH payments. 4 As a result, the State agency understated
           the Federal share by $10,620.



4
    Pursuant to section 5001(e)(1) of the Recovery Act, the increased FMAP did not apply to DSH payments.


                                                         4
   •   The State agency incorrectly reported $52,389 of Medicaid managed care expenditures
       on the line for Medicare Part A premiums. However, there was no effect on the Federal
       share because the expenditures for Medicare Part A premiums and Medicaid managed
       care are reimbursed at the same FMAP.

   •   The State agency incorrectly reported $73,434,940 as current Medicaid expenditures for
       expenditures that were incurred in prior periods. As a result, the State agency understated
       its prior period adjustments on the Form CMS-64. However, there was no effect on the
       Federal share because the State agency claimed the expenditures using the correct FMAP.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $5,189,775 to the Federal Government and

   •   strengthen internal controls to (1) ensure that amounts claimed for Federal reimbursement
       are based on actual Medicaid expenditures, (2) prevent and detect claims for duplicate
       payments, and (3) correctly report Medicaid expenditures on the Form CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described actions that it had taken to
address our recommendations. The State agency’s comments are included in their entirety as the
Appendix.




                                                5
APPENDIX
     APPENDIX: HEALTH CARE AUTHORITY COMMENTS 





                                                ~~~ ~
                                                    ~})
                                                ~
                                      STATE OF WA511J",GTON 

                               HEALTH CARE AUTHORITY 

              626 81h A\'cnuc. SE · P.O. !lox 45502 • Olympia. Washington 98504-5502


OIG Rccommrndatiolls:
   • 	 Refund S5, 189,775 to Federal Gon'rnnll'lIl
               »A joumal voucher adjustment processed in September 2009 rctumed the
                federal fund s,
             ). Funds returned to the icdcml go \'cmmc1I1 was reported on the CMS64 Q2 &
                   Q3 FFY 20 10 reports
               »   A S22K ADSA SSPSP overpayment WIIS returned thro ugh l10mml stalc
                   overpayment process lind the Medicaid Overpayment Management System
                   (MOMS)

   • 	 $ll'eIl6"h(,1I int('rnfll cuntrols 10:
      1) Ensurr t hnlnlll u unts clllinll~ d fur F('(il' ..ullvimbul'Srllll'nt 111'(' bllSl'd un Ileluul
      Ml'dicnid uprnditurcs.
      2) Prcwnlnnd d('tl'cl clllims fuf' dupli(ute pllynn' nts
      3) COI'I'l'ctly ..rpo rt Mrdica id l'xpl'ndilUres on Ihe fOl1n CMS-64.
              The State has takcn to following steps to strengt hen and enhance the intcrnal
              controls on the CMS- 64.
              }> The State established \\~thin the HealthCare Authority a Federal Accounting
                   and Reporting Unit responsib:e for all Medicaid accounting and reporting;
                   stan cnsure the compilation. analysis, an d preparation of the CMS 64 are
                   based on actual Medicaid expenditures
              }> 	 The State developed an internal re vie w process lor the detection and
                   prevention for duplicate payments in the compilation. preparation , and
                   analysis of the CMS 64
              }> 	 TIle State establi shed a cOlllprehensive quarterly and annually grant
                   reconciliation processes/procedures to ensure the correct reporting of
                   Medicaid expenditures on the CMS64
              }> 	 The State established stalTtraining IOCllsed on the prcparation of the CMS64
                   to include critical examination of Medicaid transactions alfecting the CMS 64
              }> 	 The State established lines ofcomlllunication and quarterly meeting between
                   all agencies/programs/parties involved in Mcdicaid transactions anccting thc
                   CMS64
              ::.- Hcalth Carc Authority' s Federal Acco unting and Rcporting Unit staff have
                   dcveloped new processes for streamlining and cnhancing thc accuracy and
                   efiiciency ofthe CMS 64
